APPENDIX TABLE OF CONTENTS
Order of Supreme Court of California Denying
Petition for Review (September 15, 2021) ......... 1a
Opinion of the Court of Appeal for the State of
California First Appellate District, Division
Five (July 19, 2021) ............................................ 2a
Order of Superior Court of California, County of
Alameda (June 15, 2021).................................. 20a
Statutory Provisions Involved ................................ 40a

App.1a
ORDER OF SUPREME COURT
OF CALIFORNIA DENYING
PETITION FOR REVIEW
(SEPTEMBER 15, 2021)
SUPERIOR COURT OF CALIFORNIA,
COUNTY OF ALAMEDA
________________________
CAHILL CONSTRUCTION COMPANY,
v.
S.C. (RICHARDS) DIVISION SF.
________________________
Case Number S270137
Petition for review denied

App.2a
OPINION OF THE COURT OF APPEAL
FOR THE STATE OF CALIFORNIA FIRST
APPELLATE DISTRICT, DIVISION FIVE
(JULY 19, 2021)
CERTIFIED FOR PUBLICATION
IN THE COURT OF APPEAL OF THE STATE OF
CALIFORNIA FIRST APPELLATE DISTRICT
DIVISION FIVE
________________________
CAHILL CONSTRUCTION
COMPANY, INC., ET AL.,

Petitioners,
v.
THE SUPERIOR COURT OF ALAMEDA COUNTY,

Respondent.
EDWARD RICHARDS ET AL.,

Real Parties
in Interest.
________________________
No. A162885
(Alameda County Super. Ct. No. RG21088294)
Before: RODRIGUEZ, Judge., BURNS, Judge.,
NEEDHAM, Acting P.J.

App.3a
Code of Civil Procedure section 2025.295 caps the
amount of time a plaintiff may be deposed when two
conditions are met: first, the civil action must be
“for injury or illness that results in mesothelioma”
(id., subd. (a)); and second, a licensed physician must
declare the plaintiff “suffers from mesothelioma . . . ,
raising substantial medical doubt of the survival of
the [plaintiff] beyond six months.”1 (Ibid.) If both
conditions are met, “a deposition examination of the
plaintiff by all counsel, other than the plaintiffs
counsel of record, shall be limited to seven hours of total
testimony.” (Ibid.) But the statute permits a trial court
to grant up to an additional seven hours– “for no
more than 14 hours of total deposition conducted by
the defendants”—if more than 20 defendants appear
at the deposition, the court determines that the additional time is warranted in the interest of fairness,
and the additional time does not appear to endanger
the plaintiffs health. (Id., subds. (b)(2), (c).)
Cahill Construction Company, Inc.’s petition for
writ of mandate presents an issue of first impression:
may a trial court grant deposition time in excess of
the 14-hour cap set forth in section 2025.295, subdivision (b)(2)?2 The answer—based on the unambiguous
1 Undesignated statutory references are to the Code of Civil
Procedure. These conditions also apply to silicosis.

2 Additional petitioners are Cahill Contractors, Inc.; Foster
Wheeler LLC; Fryer-Knowles, Inc.; Nibco Inc.; O’Reilly Auto
Enterprises, LLC; and Swinerton Builders. We refer to petitioners
collectively as Cahill. We refer to all defendants, including the
98 additional defendants who are not parties to this writ proceeding, collectively as defendants. We take judicial notice of
legislative history materials for section 2025.295. (Heckart v. A1 Self Storage, Inc. (2018) 4 Cal.5th 749, 767, fn. 8.)

App.4a
language of section 2025.295 and the evident legislative
purpose underlying its enactment—is no. Indeed, the
arguments advanced by Cahill are identical to those
considered, and rejected, by the Legislature when it
enacted section 2025.295. Other Code of Civil Procedure provisions addressing a court’s right to control
discovery do not alter our conclusion. Nor are we
persuaded that section 2025.295’s limitation on deposition time violates Cahill’s due process rights under
the federal Constitution.
We deny the writ petition.
BACKGROUND
In early 2021, Edward and Linda Richards
(collectively, plaintiffs) filed a lawsuit against 105
defendants, including Cahill. The complaint includes 11
causes of action arising out of Richards’s alleged
asbestos exposure and seeks compensatory and punitive
damages. The trial court granted trial preference based
on a declaration from Richards’s treating physician
that Richards, then 72 years old, was suffering from
mesothelioma and had a life expectancy of fewer
than six months. Trial is set to begin in August.
Defendants propounded written discovery to
plaintiffs. Plaintiffs’ voluminous responses to standard
interrogatories identified numerous products, job sites,
and employers that plaintiffs claimed were responsible
for Richards’s exposure to asbestos during his 30-year
career as a pipefitter. Plaintiffs provided defendants
with the transcript of Richards’s prior deposition, taken
in asbestos litigation involving Richards’s co-worker,
during which Richards was questioned about his work
history and familiarity with asbestos-containing pro-

App.5a
ducts. They also produced Richards’s employment
records.
Thereafter, plaintiffs noticed Richards’s deposition.
Cahill moved for a protective order under section
2025.420 to extend the presumptive seven-hour limit
provided for in section 2025.295, subdivision (a).3
Based on section 2025.295, subdivision (b)(2), the
court granted defendants a total of 14 hours to
depose Richards. Pursuant to subdivision (c) of the
statute, the court determined that giving defendants
more than seven hours to depose Richards did not
appear to endanger his health and the number of
defendants militated in favor of allowing them “the
maximum permissible period in which” to depose
Richards. But the court declined to grant defendants
more than 14 hours. Section 2025.295, the court concluded, imposed a “‘clear cap’” of 14 hours of total
deposition conducted by defense counsel and “eliminated” the court’s discretion to exceed that cap when a
physician attests the plaintiff has mesothelioma and
declares a substantial medical doubt of the plaintiff’s survival beyond six months.
Plaintiffs’ counsel deposed Richard for between
eight and nine hours. Approximately 80 to 90 defendants appeared at the deposition. Defendants deposed
Richards for 14 hours. During that time, defendants
jointly questioned Richards “regarding issues relevant
3 Section 2025.420 authorizes a trial court to issue a protective
order “[b]efore, during, or after a deposition.” (Id., subd. (a).)
For good cause shown, the court “may make any order that justice
requires to protect any party, deponent, or other natural person
or organization from unwarranted annoyance, embarrassment,
or oppression, or undue burden and expense.” (Id., subd. (b).)

App.6a
to all of them” and each defendant briefly questioned
Richards as to its own particular product or conduct.
After defendants’ deposition concluded, Cahill
renewed its protective order motion, arguing the cap
on deposition time deprived defendants of the ability
to effectively depose Richards and prepare for trial.
To support this argument, Cahill offered declarations
from defense counsel and excerpts from Richards’s
deposition transcript. Plaintiffs opposed the motion.
They highlighted the availability of other discovery
methods and the uncontroverted evidence that further
deposition would endanger Richards’s health.4
A different judge heard the renewed motion and
denied it. In a thorough written order, the court
concluded a trial court retains “limited discretion”
under section 2025.295 to lengthen a deposition beyond
14 hours. Referring to section 2025.420, the court
observed “other provisions of the Discovery Act
empower the Court to prevent gamesmanship and
sanction able conduct in deposition, like bullying or
improper coaching, and to provide a remedy for such
gamesmanship that could include additional deposition time.”
But the court declined to exercise its “limited
discretion,” concluding additional deposition time in
excess of the section 2025.295 cap was “not warranted
by the facts of the case.” It found the deposition
transcript was free of “gamesmanship” or “questionable
conduct”—such as repeated and frivolous speaking
4 At the time they moved for a protective order, defendants had
not deposed Richards’s wife or his former employers, nor taken
any percipient witness depositions.

App.7a
objections or evasive answers—that might warrant a
protective order under section 2025.420. It also opined
defense counsel “cover[ed] a substantial amount of
ground” during common questioning and noted Cahill
had failed to show other discovery methods, including
depositions of percipient witnesses and contention
interrogatories, were inadequate to prepare for trial.
The court also rejected Cahill’s due process argument. It questioned whether a party had a constitutional right to discovery in general, or depositions in
particular, and then held section 2025.295 “passe[d]
muster” under the federal Constitution. The court
concluded that in enacting section 2025.295, the
Legislature deemed it appropriate to limit deposition
time for a “small class of terminally ill witnesses.” The
court posited a reasonable layperson might reach the
same conclusion. Finally, the court opined the statute
complied with “‘fundamental principles of fairness
and decency.’” It certified its ruling for interlocutory
appeal (§ 166.1).
This writ petition followed. We issued an order
to show cause to consider the novel statutory questions
outlined in the trial court’s certification and other
issues pressed in the petition.5 (Paul Blanco’s Good
Car Company Auto Group v. Superior Court (2020)
56 Cal.App.5th 86, 99.) Writ review is appropriate
because the petition presents questions of first
impression “of general importance to the trial courts
and to the profession” that are amenable to the
issuance of “general guidelines . . . for future cases.”
(Oceanside Union School Dist. v. Superior Court (1962)
5 Mindful of the rapidly approaching preferential trial date, we
expedited briefing and oral argument.

App.8a
58 Cal.2d 180, 185-186, fn. 4.) The need for writ
review is further demonstrated by the fact that two
judges in the same superior court reached conflicting
interpretations of the statute. (Zembsch v. Superior
Court (2006) 146 Cal.App.4th 153, 161, fn. 4.) Additionally, Cahill made an adequate showing that it
lacked adequate remedies at law and would suffer
irreparable harm absent writ review. (Los Angeles
Gay & Lesbian Center v. Superior Court (2011) 194
Cal.App.4th 288, 299-300.)
DISCUSSION
A.

Construction of Section 2025.295

Well-settled principles guide our interpretation
of the statute. “Our fundamental task is to ascertain
the Legislature’s intent and effectuate the law’s
purpose, giving the statutory language its plain and
commonsense meaning. [Citation.] We examine that
language in the context of the entire statutory
framework to discern its scope and purpose and to
harmonize the various parts of the enactment. [Citation.] ‘If the language is clear, courts must generally
follow its plain meaning unless a literal interpretation
would result in absurd consequences the Legislature
did not intend. If the statutory language permits
more than one reasonable interpretation, courts may
consider other aids, such as the statute’s purpose,
legislative history, and public policy.’ [Citation.]
The wider historical circumstances of a law’s enactment
may also assist in ascertaining legislative intent,
supplying context for otherwise ambiguous language.”
(Kaanaana v. Barrett Business Services, Inc. (2021) 11
Cal.5th 158, 168-169.) “The interpretation of a statute
presents a question of law that this court reviews de

App.9a
novo.” (Smith v. LoanMe, Inc. (2021) 11 Cal.5th 183,
190.)
A party in a civil proceeding has a statutory
right to conduct discovery. (§ 2017.010, subd. (a).)
One way a party “may obtain” that discovery is by
taking an oral deposition. (§ 2019.010, subd. (a).)
Until 2019, section 2025.290 governed the length of
depositions in cases like the one at issue here. (Stats.
2012, ch. 346, § 1.) That statute limits the deposition
of a witness by counsel other than the witness’s
counsel to “seven hours of total testimony” but also
requires the court to “allow additional time . . . if needed
to fairly examine the deponent or if the deponent,
another person, or any other circumstance impedes
or delays the examination.” (§ 2025.290, subd. (a).)
Subdivision (b) excepts complex cases, unless a
“licensed physician attests in a declaration . . . that
the deponent suffers from an illness or condition that
raises substantial medical doubt of survival of the
deponent beyond six months.” (Id., subd. (b)(3).) In
that instance, the statute limits deposition by counsel
other than the witness’s counsel to “14 hours of total
testimony.” (Ibid.) Subdivision (c) provides that the
statute does not “affect the existing right of any
party to move for a protective order or the court’s discretion to make any order that justice requires to limit
a deposition in order to protect any party, deponent,
or other natural person or organization from unwarranted annoyance, embarrassment, oppression, undue
burden, or expense.” (Id., subd. (c).)
Certainteed Corp. v. Superior Court (2014) 222
Cal.App.4th 1053 (Certainteed) interpreted section
2025.290 to permit depositions to exceed subdivision
(b)(3)’s 14-hour limit “if additional time is ‘needed to

App.10a
fairly examine the deponent.’” (Certainteed, at p.
1061.) Certainteed held “section 2025.290 not only
authorizes the court to allow additional time to depose
a witness in these circumstances, but requires it to
do so unless the court, in its discretion, determines
that the deposition should be limited for another
reason.” (Id. at p. 1062, italics added, citing § 2025.290,
subd. (c).) Under Certainteed, a trial court is authorized—and indeed obligated—to extend the deposition
of a terminally-ill plaintiff beyond 14 hours when the
defendant shows “additional time [is] needed to fairly
examine” the plaintiff. (Certainteed, at p. 1061.)
The Legislature changed the law—and responded
to Certainteed—by adding section 2025.295 in 2019.
(Stats. 2019, ch. 212, § 1.) Effective January 1, 2020,
section 2025.295, subdivision (a) provides: “Notwithstanding Section 2025.290, in any civil action for
injury or illness that results in mesothelioma . . . , a
deposition examination of the plaintiff by all counsel,
other than the plaintiff’s counsel of record, shall be
limited to seven hours of total testimony if a licensed
physician attests in a declaration served on the
parties that the deponent suffers from mesothelioma
. . . , raising substantial medical doubt of the survival
of the deponent beyond six months.”
Subdivision (b) provides: “Notwithstanding the
presumptive time limit in subdivision (a), upon request
by a defendant, a court may, in its discretion, grant
one of the following up to: [¶] (1) An additional three
hours of deposition testimony for no more than 10
hours of total deposition conducted by the defendants
if there are more than 10 defendants appearing at
the deposition[;] [¶] (2) An additional seven hours of
deposition testimony for no more than 14 hours of

App.11a
total deposition conducted by the defendants if there
are more than 20 defendants appearing at the deposition.” Subdivision (c) provides that the “court may
grant the additional time” under subdivision (b)
“only if it finds that an extension, in the instant case,
is in the interest of fairness, which includes consideration of the number of defendants appearing at the
deposition, and determines that the health of the
deponent does not appear to be endangered by the
grant of additional time.”
In construing section 2025.295, we begin with
the words of the statute. Subdivision (a) states that
“[n]otwithstanding [s]ection 2025.290,” the deposition
of a terminally-ill mesothelioma plaintiff by counsel
other than plaintiff’s own counsel “shall be limited to
seven hours of total testimony.” The Legislature’s use
of the word “notwithstanding” means, with regard to
this narrow class of individuals, the statute supplants
section 2025.290, the language of which Certainteed
had interpreted as authorizing a deposition in excess
of 14 hours.
Section 2025.295, subdivision (b)(2) provides that,
“[n]otwithstanding the presumptive time limit in subdivision (a),” the court “may, in its discretion, grant
. . . up to: [¶] . . . [¶] . . . [a]n additional seven hours
of deposition testimony for no more than 14 hours of
total deposition conducted by the defendants if there
are more than 20 defendants appearing at the deposition.” (Italics added.) Merriam-Webster’s dictionary
defines the prepositional phrase “up to” as a “function
word to indicate a limit or boundary.” (MerriamWebster Dict. Online (2021) <https://merriam-webster.
com/dictionary/upto> [as of July 19, 2021].) The
ordinary meaning of “no more than” is “a stated

App.12a
number or fewer.” (Merriam-Webster Dict. Online,
supra, <https://merriam-webster.com/dictionary/no
more than> [as of July 19, 2021].) The language of
subdivision (b)(2) is clear and unambiguous: a trial
court has discretion to grant up to—but no more
than-14 hours for defense counsel to depose a
terminally-ill mesothelioma plaintiff.
Cahill argues section 2025.295 does not preclude
a trial court from granting defendants more than 14
hours when additional time is “justified,” such as
when the plaintiff has a lengthy history of alleged
asbestos exposure and a large number of defendants
appears at the deposition. Not so. Cahill’s interpretation
contravenes the statute’s plain language and renders
the phrase “for no more than” meaningless. Had the
Legislature wanted to provide the trial court with
discretion to increase the time limit beyond 14 hours,
it could have done so—such as it did in section
2025.290. It did not. We cannot “‘rewrite a statute,
either by inserting or omitting language, to make it
conform to a presumed intent that is not expressed.’”
(Kaanaana v. Barrett Business Services, Inc., supra,
11 Cal.5th at p. 171.) Moreover, “courts are without
power to expand the methods of civil discovery beyond
those authorized by statute.” (Holm v. Superior Court
(1986) 187 Cal.App.3d 1241, 1247.)
Cahill’s argument also ignores the Legislature’s
stated purpose in enacting section 2025.295, which was
to “protect dying mesothelioma . . . victims by limiting
cross-examination in a deposition” to 14 hours. (Sen.
Rules Com., Off. of Sen. Floor Analyses, Analysis of
Sen. Bill No. 645 (Reg. Sess. 2019-2020) as amended
July 5, 2019, p. 4 (Sen. Rules Com.).) The statute
was a direct response to Certainteed, which interpreted

App.13a
section 2025.290, subdivision (b)(3) to authorize depositions in excess of 14 hours: the Legislature expressed
concern that the Certainteed rule was being used to
allow “marathon depositions” that were inflicting
“undue emotional and physical harm on victims
during their final days of life—even hastening death.”
(Sen. Rules Com., at pp. 4, 5-6.) Section 2025.295
thus placed a “tight limit on the length of deposition
testimony, affording courts discretion to extend . . . up
to 14 hours of total deposition where there are more
than 20 defendants.” (Sen. Rules Com., at p. 6, italics
added; Sen. Com. on Judiciary, Analysis of Sen. Bill
No. 645 (2019-2020 Reg. Sess.) Apr. 2, 2019, p. 7
[“[t]his bill places a tight limit on the length of deposition testimony, affording courts discretion only to
extend” to the provided for cap] (Sen. Com. on
Judiciary), italics added.)
When the bill was introduced, the Legislature
acknowledged “asbestos litigation is generally highly
complex and involves numerous defendants.” The
Legislature considered several factors, including
whether the proposed deposition length would be
“sufficient in cases with dozens of defendants,” the
importance of deposition testimony in asbestos litigation, and the availability of other methods of
discovery. (Assem. Com. on Judiciary, Analysis of Sen.
Bill No. 645 (Reg. Sess. 2019-2020) June 4, 2019, pp.
6-8.) But the Legislature also expressed concern that
existing law governing depositions was being “utilized
as a tool to stall litigation or needlessly harass
plaintiffs.” (Id. at p. 1.) Moreover, the Legislature considered, and rejected, the very arguments Cahill makes
here: that the cap on defense deposition length unfairly
limited cross-examination and that the bill violated a

App.14a
defendant’s due process rights. (Sen. Com. on Judiciary,
supra, pp. 6-7.) The Legislature ultimately settled on
a “clear cap” of 14 hours (Sen. Rules Com., supra, at
p. 4) and “narrowly aimed” the legislation “at only
those deponents whose time is in short supply, and [for
whom] special consideration is arguably warranted.”
(Id. at p. 6.) The Legislature concluded the statute
“provide[d] a reasonable limitation on deposition testimony in a narrow subset of cases based on documented and extremely critical health concerns.” (Ibid.)
In sum, the unambiguous statutory language and
the legislative history unquestionably demonstrate the
Legislature’s purpose in enacting section 2025.295
was to impose strict time limits on a small class of
depositions, eliminate a trial court’s discretion to exceed
the 14-hour cap, and thereby protect a uniquely
vulnerable population.
B.

Section 2025.420

Cahill’s reliance on section 2025.420, which authorizes a trial court to issue a protective order to
control deposition conduct, does not persuade us that
courts have the authority to grant additional deposition
time in excess of the 14-hour limit imposed by section
2025.295. Section 2025.420, subdivision (b) provides
a nonexhaustive list of orders that may be issued,
such as that “the deposition not be taken at all,” or
that “the scope of the examination be limited to
certain matters.” (Id., subd. (b)(1), (b)(10); Nativi v.
Deutsche Bank National Trust Co. (2014) 223 Cal.
App.4th 261, 316.) The statute does not explicitly allow
deposition time in excess of statutory limits, and
Cahill cites no case law supporting such a construction.

App.15a
(Upshaw v. v. Superior Court (2018) 22 Cal.App.5th
489, 504, fn. 7.)
Even assuming section 2025.420 gives courts the
power to grant additional deposition time, the more
specific and later enacted statute—section 2025.295—
prevails. (Lopez v. Sony Electronics, Inc. (2018) 5
Cal.5th 627, 634.) And, unlike section 2025.290,
which explicitly disclaimed any intent to affect a party’s
ability to seek a protective order, section 2025.295
contains no such language. Moreover, the Legislature
was aware of section 2025.420 when it enacted section
2025.295, yet it made no mention of the protective
order statute when discussing the strict time limits it
was considering, a further indication the Legislature
did not intend to permit a party to use section
2025.420 to circumvent the cap on deposition time.
(Sen. Com. on Judiciary, supra, p. 2; Sen. Rules Com.,
supra, p. 1; see Chalmers v. Hirschkop (2013) 213
Cal.App.4th 289, 309.) The foregoing demonstrates
the Legislature intended to enact a hard 14-hour cap
on this class of depositions, brooking no exception.
C.

Due Process Challenge

Cahill concedes section 2025.295 is facially valid
but contends it is unconstitutional as applied because
the statute violates Cahill’s rights to “due process
and confront witnesses” under the federal Constitution.
“A person’s right of cross-examination and confrontation
of witnesses against him in noncriminal proceedings
is a part of procedural due process guaranteed by the
Fifth Amendment and the Fourteenth Amendment
to the federal Constitution, where there is involved
a threat to life, liberty or property.” (August v.
Department of Motor Vehicles (1968) 264 Cal.App.2d

App.16a
52, 60.) In civil proceedings, “‘[d]ue process requires
only that the procedure adopted comport with fundamental principles of fairness and decency. The due
process clause of the Fourteenth Amendment does
not guarantee to the citizen of a state any particular
form or method of procedure.’” (People v. Bona (2017)
15 Cal.App.5th 511, 520.)
An as-applied challenge “‘contemplates analysis
of the facts of a particular case . . . to determine the
circumstances in which the statute . . . has been applied
and to consider whether in those particular circumstances the application deprived the individual to
whom it was applied of a protected right.’ [Citation.]
When reviewing an as-applied constitutional challenge
on appeal, we defer to the superior court’s findings
on historical facts that are supported by substantial
evidence and then independently review the constitutionality of the statute under those facts.” (California
Advocates for Nursing Home Reform v. Smith (2019)
38 Cal.App.5th 838, 840.)6
6 Cahill does “not dispute [the trial court’s] finding that [s]ection
2025.295 survives a facial constitutional challenge.” As it did
below, however, Cahill “appear[s] to blend the concepts of facial
and as-applied constitutional challenges” in its briefing. Moreover,
with regard to its as- applied argument, Cahill does not acknowledge “the standard of review, in and of itself a potentially
fatal omission.” (Ewald v. Nationstar Mortgage, LLC (2017) 13
Cal.App.5th 947, 948.) Cahill cites Tobe v. City of Santa Ana
(1995) 9 Cal.4th 1069, but that case does not assist petitioners.
There, the “plaintiffs did not clearly allege” an as-applied “challenge or seek relief from specific allegedly impermissible applications of the ordinance.” (Id. at p. 1083.) The California Supreme
Court held that even “assuming that an as applied attack on
the ordinance was stated, the plaintiffs did not establish that
the ordinance was applied in a constitutionally impermissible
manner.” (Ibid.)

App.17a
Here, in denying Cahill’s request for a protective
order, the court found the statutory cap did not prevent
defendants from effectively participating in the deposition. Substantial evidence supports that finding.
The record demonstrates defense counsel “cover[ed] a
substantial amount of ground” during common questioning and that each defendant also conducted individual questioning. The court also found the statute
did not prevent defendants from taking advantage of
the myriad other forms of discovery available to
them, including depositions of percipient witnesses
and contention interrogatories to plaintiffs. Substantial evidence supports that factual finding. In light of
these findings, Cahill’s as-applied challenge to the
statute fails.7
Cahill has not persuasively argued otherwise.
Instead, Cahill highlights the inequity in allowing
plaintiffs’ counsel unlimited time to depose the plaintiff
while placing an “inflexible cap” on defense deposition.
That argument is relevant to a facial challenge rather
than an as-applied one. And, while it may have some
7 This court’s decision to entertain writ review of Cahill’s novel
as-applied due process challenge to section 2025.295 should not
be understood to dictate that appellate courts will grant writ
review of future trial court rulings on this subject. (Oceanside
Union School Dist. v. Superior Court, supra, 58 Cal.2d at pp.
185-186, fn. 4.) Establishing that an aggrieved petitioner lacks
other adequate remedies at law and will suffer irreparable harm
from an adverse determination on such a due process claim is
inherently difficult for a variety of reasons, including the ongoing
nature of discovery proceedings, the availability of a myriad of
discovery tools other than depositions, the possibility of defendants
developing other evidence that may mitigate any lost opportunities
caused by a restriction on one discovery tool, and the potential
for defendants to cross-examine plaintiff at trial.

App.18a
logical appeal, the Legislature decided otherwise.
The time disparity in this case does not render the
statute unconstitutional as applied to Cahill. In
enacting the statute, the Legislature considered—
and rejected—the argument Cahill makes here and
found the statute “provide[d] a reasonable limitation
on deposition testimony in a narrow subset of cases
based on documented and extremely critical health
concerns.” (Sen. Rules Com., supra, at p. 6.) The
Legislature also noted that “[d]epositions are only
one of the many tools available in discovery. For
example, interrogatories can provide access to much
of the same information defendants seek in extended
depositions and provide it in a timelier, more efficient,
and not excessively redundant manner that does not
overly tax the health of a dying patient. If a plaintiff
does not adequately respond to such interrogatories,
there are mechanisms for defendants to compel further responses.” (Ibid.)
We hold section 2025.295 sufficiently comports
with principles of fairness and decency and reject
Cahill’s as-applied challenge to the statute.
DISPOSITION
The petition for writ of mandate is denied. This
decision will become final as to this court three days
after its filing. (Cal. Rules of Court, rule 8.490(b)(2)(A).)
Plaintiffs are entitled to recover costs. (Cal. Rules of
Court, rule 8.493(a)(1)(A).)

App.19a

Rodriguez., J.
WE CONCUR:
Needham, Acting P.J.

Burns, J.
Cahill Construction Co. Inc. v. Superior Court (Alameda
County) (A162885)
Trial Court: Alameda County
Trial Judges: Hon. Jo-Lynne Q. Lee and
Hon. Michael Markman
Attorneys:
Hugo Parker, Edward R. Hugo, James C. Parker,
Tina M. Glezakos, Alex G. Taheri, Bina Ghanaat for
Petitioners.
Arkin Law Firm, Sharon J. Arkin; Keller, Fishback,
& Jackson, Stephen M. Fishback, Daniel L. Keller for
Real Parties in interest.

 Judge of the Superior Court of Alameda County, assigned by
the Chief Justice pursuant to article VI, section 6 of the
California Constitution.

App.20a
ORDER OF SUPERIOR COURT OF
CALIFORNIA, COUNTY OF ALAMEDA
(JUNE 15, 2021)
SUPERIOR COURT OF CALIFORNIA,
COUNTY OF ALAMEDA
RENE C. DAVIDSON ALAMEDA
COUNTY COURTHOUSE
________________________
RICHARDS,

Plaintiff/Petitioner(s),
v.
3M COMPANY,

Defendant/Respondent(s).
________________________
No. RG21088294
Motion for Protective Order Denied
Before: Michael M. MARKMAN, Judge.
The Motion for Protective Order filed for Swinerton
Builders and O’Reilly Auto Enterprises, LLC and
NIBCO INC and Fryer-Knowles INC, A Washington
Corporation and Cahill Construction CO INC was set
for hearing on 06/15/2021 at 10:00 AM in Department
18 before the Honorable Michael M. Markman. The
Tentative Ruling was published and was contested.
The matter was argued and submitted, and good
cause appearing therefore,

App.21a
IT IS HEREBY ORDERED THAT:
Mr. Richards has pleural mesothelioma. He
worked for more than thirty years as a pipe fitter
with many different asbestos-containing products. In
their Complaint, filed January 29, 2021, Plaintiffs
name more than 100 different defendants. According
to the Moving Defendants, between 80 and 92
defendants appeared at Mr. Richard’s deposition.
Notwithstanding their numbers, the defendants
were limited to fourteen hours of examination time.
The limit is due to a “clear cap” of 14 hours of deposition cross-examination, imposed by a new statute
passed by the California Legislature. The limit applies
where a licensed physician has declared a deponent
suffers from mesothelioma and there is substantial
medical doubt of the survival of the deponent beyond
six months. (Cal. Code Civ. Proc. § 2025.295 [“Section
2025.295”].) Sadly, Mr. Edwards falls into that category.
Defendants Cahill Construction Company, Inc., et
al. (“Cahill”) and ABCO Mechanical Contractors, Inc.
et al’s (“ABCO”) (Cahill and ABCO are collectively
“Moving Defendants”) contend that the new and
strict time limit violates the due process guarantees
of the United States Constitution, as incorporated to
our state through the Fourteenth Amendment, and
of the California Constitution. Moving Defendants,
joined by many others, seek a protective order granting
them relief from the cap on deposition time with Mr.
Richards despite his ill health. They bring their
respective motions under section 2025.420(a) of the
Code of Civil Procedure, which provides in relevant
part: “Before, during, or after a deposition, any party,
any deponent, or any other affected natural person or

App.22a
organization may promptly move for a protective
order.”
ABCO suggests that an Order providing for 35
to 41 additional hours of Mr. Richards’ deposition
would be appropriate based on the number of defendants remaining. (See ABCO Mem. at n.3.) In its Reply
(at p. 2:26), Cahill asserts that each defendant would
need “a minimum of 30 additional minutes” to complete
their respective cross-examinations of Mr. Richards,
amounting to an additional 40 to 46 hours of deposition.
The Court DENIES Moving Defendants’ respective
Second Motions for Protective Order re: Deposition of
Plaintiff Edward Richards. As explained below, the
Court finds that Section 2025.295 passes muster
under the United States and California Constitutions.
The Court further finds that a protective order under
section 2025.420 of the Code of Civil Procedure,
which would require the Court to exercise its limited
discretion to exceed the time limits set by Section
2025.295, is not warranted by the facts of the case.
Given lingering questions about the parameters of
the Court’s limited discretion, the Court will certify
this order for interlocutory appeal under section
166.1 of the Code of Civil Procedure.
New Code of Civil Procedure Section 2025.295
In 2019, the California Legislature passed a law
changing the rules about the duration of a deposition
in civil cases involving plaintiffs with mesothelioma
or silicosis. The plain language of Section 2025.295 is
not ambiguous. Effective January 1, 2021, Section
2025.295 provides:

App.23a
“(a) Notwithstanding Section 2025.290, in any
civil action for injury or illness that results
in mesothelioma or silicosis, a deposition
examination of the plaintiff by all counsel,
other than the plaintiffs counsel of record,
shall be limited to seven hours of total testimony if a licensed physician attests in a
declaration served on the parties that the
deponent suffers from mesothelioma or
silicosis, raising substantial medical doubt
of the survival of the deponent beyond six
months.
(b) Notwithstanding the presumptive time limit
in subdivision (a), upon request by a defendant, a court may, in its discretion, grant one
of the following up to:
(1) An additional three hours of deposition
testimony for no more than 10 hours of
total deposition conducted by the defendants if there are more than 10 defendants appearing at the deposition.
(2) An additional seven hours of deposition
testimony for no more than 14 hours of
total deposition conducted by the defendants if there are more than 20 defendants appearing at the deposition.
(c) The court may grant the additional time
provided for in paragraphs (1) and (2) of
subdivision (b) only if it finds that an extension, in the instant case, is in the interest of
fairness, which includes consideration of
the number of defendants appearing at the
deposition, and determines that the health

App.24a
of the deponent does not appear to be
endangered by the grant of additional time.”
(Code Civ. Proc. § 2025.295.)
Legal Standards for Analysis of Defendants’
Constitutional Challenges
According to ABCO, “[t]his Motion is brought
based on the unconstitutional nature of C.C.P.
§ 2025.295 as drafted, as well as the fact that the
statute is inapplicable to Plaintiff Richard Edwards’
deposition due to Plaintiffs’ intention to use the
deposition for trial preservation testimony.” (ABCO
Notice of Motion, filed 5/19/21, at 2.) Cahill references
the constitution in its Notice of Motion, but couches
its motion primarily in the language of section 2025.420
of the Code of Civil Procedure as seeking “orders that
justice requires to protect Defendants’ right to
discovery, including from undue burden and irreparable
harm, caused by the time-limits imposed on defendants
to cross-examine plaintiff’ Mr. Edwards. The source
of the Court’s authority are the Court’s “constitutional,
statutory[-] and inherent powers.” (Cahill Notice of
Motion, filed 5/19/21, at 2.)
Moving Defendants thus appear to blend the
concepts of facial and as-applied constitutional challenges in this motion. A facial challenge “considers
only the text of the measure itself, not its application
to the particular circumstances of an individual.”
(People v. Super. Ct. (J.C. Penney) (2019) 34 Cal.
App. 5th 376, 387 [quoting Tobe v. City of Santa Ana
(1995) 9 Cal. 4th 1069, 1084].) “In contrast, an asapplied challenge ‘contemplates analysis of the facts
of a particular case or cases to determine the circumstances in which the statute or ordinance has been

App.25a
applied and to consider whether in those particular
circumstances the application deprived the individual to whom it was applied of a protected right.
[Citations].”” (Id.)
Of course, “A party challenging the constitutionality of a statute ordinarily must carry a heavy
burden. “Facial challenges to statutes . . . are disfavored. Because they often rest on speculation, they
may lead to interpreting statutes prematurely, on
the basis of a bare-bones record. [Citation.] . . . Accordingly, we start from the strong presumption that the
[statute] is constitutionally valid.’ [Citations.] ‘We
resolve all doubts in favor of the validity of the
[statute].’ [Citation.] Unless conflict with a provision
of the state or federal Constitution is clear and unmistakable, we must uphold the [statute]. [Citations.]”
(J.C. Penney, 34 Cal. App. 5th at 387 [quoting
Building Industry Ass’n of Bay Area v. City of San
Ramon (2016) 4 Cal. App. 5th 62, 90].) The as-applied
challenge “must establish the particular application of
the statute violates the [party’s] constitutional rights.
[Citation].” (J.C. Penney, 34 Cal. App. 5th at 387
[quoting Coffman Specialties, Inc. v. Department
of Transp., (2009) 176 Cal. App. 4th 1135, 1145].)
Due Process in Civil Cases
This motion concerns alleged due process violations, which are distinct from confrontation clause
violations. While the Moving Defendants occasionally
reference it, the confrontation clause is really not at
issue here. “In civil proceedings, . . . , the right to
confront and cross-examine witnesses is found in the
due process clauses of the federal and state constitutions.” (People v. Oray (2021) 63 Cal.App.5th 529.) In

App.26a
civil actions, “[t]hat means only that the procedure
adopted comport with fundamental principles of fairness and decency. The due process clause of the
Fourteenth Amendment does not guarantee to the
citizen of a state any particular form or method of
procedure.” (Murillo v. Super. Ct. (2006) 143
Cal.App.4th 730, 738; see also Shaw v. County of
Santa Cruz (2009) 170 Cal.App.4th 229, 265 n. 44
[“The due process provisions of the California Constitution are the substantial equivalent of portions of the
Fourteenth Amendment and they evoke substantially the same standards as those prescribed by the
federal Constitution.”].)
Analysis
Moving Defendants’ Contentions
Section 2025.295 places a cap on the total number
of hours a terminally ill mesothelioma patient must
spend in deposition. The Moving Defendants contend
that the cap is not fair because it is inflexible. While
the cap increases based on the number of defendants
up to the twentieth defendant, it does not expand
any further after reaching twenty defendants. The
fourteen-hour cap remains the cap regardless of
whether there are twenty-one or a hundred and twentyone defendants.
Section 2025.295 is thus different from some other
limits placed on deposition discovery, which explicitly
give the court discretion to modify the limits based
on the needs of a given case. These include the sevenhour time limit in section 2025.290 for witnesses who
are in imminent danger of losing their lives to
mesothelioma, as well as other state and federal rules

App.27a
relating to time limits and to the total number of
depositions that can be taken in a civil case.
Moving Defendants argue that, because there is
no dispute that there is substantial medical doubt
that Mr. Richards will live more than six months,
Mr. Richards’ direct examination deposition testimony
may constitute trial preservation testimony. If Mr.
Richards is unable to testify at trial, Defendants
contend that they will have been denied their due
process rights to adequately cross-examine him during
his deposition. Moving Defendants note that deposition
discovery is particularly important in preparing a
case for trial and also argue that other provisions in
the California Civil Discovery Act authorize trial
courts to use discretion to modify discovery based on
the specific circumstances of the case before them.
The Moving Defendants focus on the relationship
between the time limit and the total number of
defendants in the case. By dividing the time limit by
the total number of defendants, they point to a low
pro rata amount of time. If 80 to 92 defendants
appeared through counsel at Mr. Richards’ deposition,
each single defendant would have roughly nine to
10.5 minutes to ask him questions on the record.
Many of the defendants opine that, in their opinion, they were not able to fully and fairly examine Mr.
Richards given the time constraints (e.g., Brannon Dec.
¶ 10; Glezakos Dec. Exhs. 13-21, 27-40). They also
complain that Plaintiffs’ counsel had at least eight
full hours to directly examine Mr. Richards at the
start of the deposition (Brannon Dec. ¶ 6; Glezakos
Dec. Exhs. 1-4). Cahill suggests that the Court ought
to bar Plaintiffs from using Mr. Richards’ deposition

App.28a
at all unless Defendants are given more time to
examine him.
The Moving Defendants further argue that Mr.
Richards was evasive in his testimony, and that he
and plaintiffs’ counsel were trying to “run out the
clock” on the 14 hours of cross-examination time provided to Defendants.
Construing Section 2025.295
The Court is not persuaded that constitutional
requirements are impacted by Defendants’ objections.
In reaching this conclusion, the Court begins by
construing the statute itself. Set out above, Section
2025.295 is unambiguous. It plainly sets a cap on
total deposition time for cross-examination of a
mesothelioma plaintiff where a licensed physician
has opined that there is “substantial medical doubt
of the survival of the deponent beyond six months.”
The new statute does not explicitly allow for the trial
court to exercise discretion to lengthen the time of
the deposition beyond fourteen hours.
Second, the legislative history supports the Court’s
conclusion that the new statute does not provide
much room to exercise discretion. When they enacted
Section 2025.295, the Legislature was well aware
that courts had been empowered to exercise their
discretion to allow more than fourteen hours of deposition time of plaintiffs with mesothelioma. We may
assume that the Legislature knew that the Court of
Appeal had analyzed Section 2025.290 and confirmed
the trial court’s generally unfettered discretion to
extend deposition time of a plaintiff with mesothelioma by asbestos defendants in CertainTeed Corp. v.
Superior Court (2014) 222 Cal.App.4th 1053. When

App.29a
the Legislature enacted Section 2025.295 last year, it
consciously omitted the language that the CertainTeed
Court had relied on in its earlier interpretation.
The Final Senate Floor Analysis of SB645 (2019)
at pp. 3-4 further supports the Court’s conclusion. It
states in relevant part:
“Generally, deposition testimony is limited
to seven hours per deponent, except as provided or as ordered by the court. In complex
cases, however, depositions are exempt from
the limit. One exception to this exemption is
where a physician attests that the deponent
suffers from a condition raising substantial
medical doubt of survival beyond six months.
In such a case, the deposition is limited to
two days of no more than seven hours of
total testimony each day. Despite this
provision protecting dying deponents, the
statute has been interpreted to allow discretion, and such deponents have been subjected
to depositions much longer than the 14 hours
provided for in the statute.
“In response, this bill places a clear cap of
seven hours on the deposition testimony of a
plaintiff deponent when: (1) the plaintiff
suffers from mesothelioma or silicosis; (2)
the action is for injury or illness resulting in
such illness; and (3) a physician attests that
such illness raises doubt as to the plaintiffs
survival beyond six months. Courts have
the ability to extend such depositions where
there are more than 10 defendants appearing
at the deposition.” [Note that final version
of the new statute allows up to 14 hours of

App.30a
deposition cross-examination.]
Given the plain language and legislative history,
Section 2025.295 itself takes away much of the discretion previously held by the Court to extend deposition time under cases like CertainTeed. As explained
below, however, the Court finds it does retain some
limited discretion to extend the time for deposition of
a witness covered under Section 2025.295. Specifically; other provisions of the Discovery Act empower
the Court to prevent gamesmanship and sanctionable
conduct in deposition, like bullying or improper
coaching, and to provide a remedy for such gamesmanship that could include requiring additional deposition
time.
Due Process
Having determined that the statute leaves little
room for the trial court to exercise its discretion, the
Court must next determine whether the time limits
set by Section 2025.295 comport with “fundamental
principles of fairness and decency.” (Murillo, 143
Cal.App.4th at 738.) The answer is yes, whether the
Moving Defendants’ concerns are taken as a facial or
an as-applied challenge.
Facial Challenge
As a facial challenge, Defendants fail to explain
how section 2025.295 could violate the due process
clause under all circumstances. They do not present
a textual analysis of the statute. They also do not
present any case authority to support their position
concerning a facial challenge. They do not even cite
to authority supporting a constitutional right to
discovery in general or to deposition discovery in

App.31a
particular. Indeed, at least as a purely academic
matter, it is unclear whether a constitutional right to
discovery exists at all in civil cases.
Defendants’ argument appears to reduce to the
theory that due process always requires the trial
court be able to exercise its discretion to alter the
procedures set out in a statute concerning a method
of discovery. Such an argument has no support in
any case law cited by Defendants and the Court is
not aware of any. Even Defendants seem prepared to
concede that setting limits on deposition time for a
mesothelioma plaintiff may make sense in situations
involving 20 or fewer deponents. That concession in
itself would appear to doom a true facial challenge to
Section 2025.295. Time limits as a concept, in and of
themselves, are imposed even at trial in state and
federal courts across the country (though over the
years California has been more hostile to trial time
limits than have other jurisdictions). Section 2025.295
easily survives a facial challenge.
As-Applied Challenge
Defendants’ as-applied challenge fails to establish
a departure from fairness and decency sufficient to
be a due process violation. By enacting Section
2025.295, the Legislature necessarily reached a conclusion that health considerations for a small class of
terminally ill witnesses made it appropriate to limit
the time that the witness needed to spend answering
questions in deposition. An objective layperson could
easily conclude that someone in the situation of the
small class of extremely ill individuals covered by
Section 2025.295 ought not to have to spend more than

App.32a
fourteen hours on the record being cross-examined by
a large group of lawyers, no matter how friendly.
Both Mr. Richards and one of his physicians, Dr.
Ajithkumar Puthillath, have submitted sworn declarations averring that there is substantial medical
doubt he will live more than six months, and also
that a further deposition could endanger Mr. Richards’
health. Moving Defendants have not established to
the Court’s satisfaction that requiring Mr. Richards
to sit for roughly 35 more hours (five full days) of
continued deposition would comport with fundamental
principles of fairness and decency.
The cases relied upon by the Moving Defendants
are not particularly helpful in an analysis of Section
2025.295. For example, Nelson v. Adams USA, Inc.,
529 U.S. 460, 466 (cited in Abco Mem., filed 5/19/21,
at 5], concerned a district court’s decision to permit
the immediate entry of an amended judgment against
the plaintiff in a patent infringement lawsuit. The
plaintiff was a corporation, which was controlled by
the inventor of the patent-in-suit. The defendant
prevailed in the case due to the inventor’s inequitable
conduct before the U.S. Patent and Trademark Office.
The district court awarded fees and costs to the
defendant. The defendant convinced the district court
to allow amendment of the pleadings to name the
inventor as an individual, in addition to the corporation.
Simultaneously, the district court permitted entry of
an amended judgment against the inventor, which
meant that he (not just the corporation) would be hit
with a judgment for fees and costs.
The individual inventor was not given an opportunity to address the amendment of the judgment. The
U.S. Supreme Court explained that the individual

App.33a
inventor “was never afforded a proper opportunity to
respond to the claim against him. Instead, he was
adjudged liable the very first moment his personal
liability was legally at issue. Procedure of this style
has been questioned even in systems, real and
imaginary, less concerned than ours with the right to
due process.” (Nelson, 529 U.S. at 468 [in a footnote
following this passage, Justice Ginsberg, writing for
the unanimous Court, quoted extensively from Alice
in Wonderland].)
The California Supreme Court’s decision in
Marriage of Flaherty (1982) 31 Cal. 3d 637, 654, is
similarly unhelpful. There, the Court of Appeal had
imposed a $500 sanction against counsel for filing a
frivolous appeal in a family law matter. The sanction
came completely out of the blue, without an order to
show cause, or any other notice, first being issued
by the Court of Appeal. (Id. at 652.) The California
Supreme Court explained that without “fair warning,
affording the attorney an opportunity to respond to
the charge, and holding a hearing,” sanctions against
counsel violated due process (it probably helped that
the Supreme Court also found elsewhere in the opinion that the appeal was not frivolous). (Id. at 654.)
Here, we are not faced with anything approaching
what happened in Nelson or in Marriage of Flaherty.
The parties are a long way from the Court entering a
judgment. Defendants have been, and will continue
to be, heard on any substantive or procedural motion
before the Court, and those left at trial will have an
opportunity to present evidence and to argue. All
parties received notice of Plaintiff s deposition and
were able to observe and, within the guidelines nego-

App.34a
tiated by counsel given the mandate of Section
2025.295, to participate.
Section 2025.295 has eliminated the sort of slidingscale approach that some trial courts may have used
in the past to permit additional deposition time
under CertainTeed, with time going up as the total
number of defendants in the case went up. The
presence of more than twenty (or ninety or even 190)
defendants, however, does not render Section 2025.295
unconstitutional as applied. Again, there is no
authority from which the Court can infer a constitutional right to a minimum per-party amount of deposition time. Again, the Legislature has determined
that a terminally ill mesothelioma patient should not
be subjected to more than fourteen hours of deposition regardless of the number of defendants who
wish to take his or her testimony.
The Court is not prepared to hold that Section
2025.295 bars any and all exercise of discretion in
providing a defendant a bit more time to take a
mesothelioma patient’s deposition. For example, the
Court has the power to address gamesmanship and
questionable conduct in court proceedings, including
in deposition. Just as the Court can be asked to enter
a protective order to prevent bullying a witness, so
too can the Court enter a protective order to stop
frivolous speaking objections or delay tactics improperly
and willfully used by an attorney or to extend deposition
time to provide a remedy for such discovery abuseeven if the attorney’s client falls in the category
covered by Section 2025.295.
The Court has examined the Richards deposition
transcript and has not found discovery abuse by Mr.
Richards or his counsel sufficient to make it necessary

App.35a
to exceed the limits set out in Section 2025.295 in
order to comport with fundamental fairness. At most,
counsel made a series of inappropriate speaking
objections and unnecessarily wasted a small amount
of time warning defense counsel that the proverbial
clock was ticking down. In the aggregate, however, it
does not appear those speaking objections were consciously used as a delay tactic. The testimony from
Mr. Richards himself, cited by the Moving Defendants as showing him refusing to answer questions,
generally appears to be the sort of testimony one
would expect from someone who is not a professional
witness. Frequently, it seems the responses a defendant did not like were due to the way the question was
asked.
Protective Order Analysis
Separate and apart from the constitutional analysis, the Court is not persuaded that it should exercise its discretion under section 2025.240 to increase
the deposition time limits for Mr. Richards set by
Section 2025.295. In reaching this conclusion, the
Court reviewed the transcript of Mr. Richards’ deposition by Defendants, as well as the declarations submitted by counsel for the Moving Defendants and
various joining defendants.
Massively multi-defendant civil cases appear in
many corners of our justice system. Our system has
developed many ways to preserve the procedural
integrity of such cases. In the context of depositions,
those ways have included imposing time limits on
depositions. Joint defense arrangements, or common
interest groups, are permissible (and encouraged),
and parties may pool resources.

App.36a
Here, as is expected in asbestos cases (not to
mention other mass torts, patent cases, antitrust
cases, and many types of class action), the defendants
agreed among themselves to conduct a joint crossexamination of the witness regarding issues relevant
to all of them. (See Moving Brannon Dec. ¶¶ 4-5;
Moving Glezakos Dec. Exhs. 1-12 and Exhs. 13, 14,
17 and 18 at ¶ 4.). The Court has reviewed the
transcript of Mr. Richards’ deposition and finds that
counsel for defendants did an admirable job covering
a substantial amount of ground. If anything, it would
perhaps have been appropriate for each defendant to
cede a bit more time to the common defense.
The declarations by counsel for defendants do
not provide the sort of facts that the Court would find
compelling for purposes of exercising what limited discretion it has under section 2025.240. By way of
example, pages 3-4 of the Glezakos declaration underscores the fact that counsel spent time trying to get
Mr. Richards to admit that a company “manufactured
many different types of floor tiles,” where Mr. Richards
testified that the only thing he specifically recalled
was that the box of tiles he worked with had “Flintkote
Asbestos Tiles” written on them.
Counsel also points to answers as evasive where
they spent time attempting to establish that Mr.
Richards lacked personal knowledge about what
another defendant knew about the hazards of asbestos.
Of course, it would be rather surprising for someone
like Mr. Richards to know what an executive at a
company where he never worked (but whose products
he worked with) might have known about asbestos
hazards thirty years ago.

App.37a
The Moving Defendants do not make a showing
that other avenues for discovery are inadequate
(though it is unclear that a further showing in this
regard would permit the Court to depart from the
clear cap set in Section 2025.295). For example, no
one has yet deposed Mr. Richards’ co-plaintiff. Depositions of other witnesses have been scheduled but
few (if any) have been taken. Further, with respect to
questions concerning Mr. Richards’ lack of knowledge of what a defendant might have known concerning the hazards of asbestos thirty years ago, a
contention interrogatory to Plaintiffs asking for all
facts supporting their contention that the particular
defendant should be liable for punitive damages
ought to get the defendant the information to which
they are entitled. It is unclear whether any such
contention interrogatories have yet been served.
To the extent that Defendants contend that
Plaintiffs’ interrogatory responses are still deficient
(see Brannon Dec. ¶ 3; Glezakos Dec. ¶ 5 and Exh.
26), it is unclear what responses had been received
as of the 5/19/2021 date of filing of their Moving
papers or as of their 6/4/2021 Reply. (Glezakos Dec.
¶ 4.) Additionally, in connection with a different motion
set for hearing at the same time as this one, the
Court is denying a motion for protective order and
requiring that Mr. Richards serve further responses
to an unusually large number of interrogatories.
Finally, the Court OVERRULES Plaintiffs’
Objections to the Moving Defendants’ Second Motions
for Protective Order re: Mr. Richards’ Deposition.
Notice and an opportunity to be heard are the touchstones of due process. The Moving Defendants’ motion
is ripe, and resolution of the issue of the length of

App.38a
Mr. Richards’ deposition is important for the parties
as they prepare for dispositive motion practice and for
trial. The Court of Appeal appears to have contemplated that Defendants could renew their motion
once the deposition of Mr. Richards was complete.
Certification for Appeal
Defendant Cahill asks the Court to certify this
order for an interlocutory appeal under section 166.1
of the Code of Civil Procedure. Section 166.1 provides:
“Upon the written request of any party or
his or her counsel, or at the judge’s discretion,
a judge may indicate in any interlocutory
order a belief that there is a controlling
question of law as to which there are substantial grounds for difference of opinion,
appellate resolution of which may materially
advance the conclusion of the litigation.?
Neither the denial of a request for, nor the
objection of another party or counsel to, such
a commentary in the interlocutory order, may
be grounds for a writ or appeal.”
(Code Civ. Proc. § 166.1.)
Here, the question of the existence and extent of
the Court’s discretion to depart from the cap on deposition time in Section 2025.295 is one where there are
“substantial grounds for difference of opinion.” Some
many credibly argue that Section 2025.295 takes
away any and all discretion. The undersigned finds
very limited discretion based on section 2025.240, but
finds that the presence of a large number of defendants alone is insufficient to satisfy the requirements
for exceeding the clear cap set by Section 2025.295.

App.39a
These questions are likely to recur in many future
cases until the Court of Appeal can either (a) confirm
that this Court’s approach is the right one, (b) determine that Section 2025.295 eliminates all discretion,
or else (c) set out guidelines concerning when (if ever)
the simple aggregate number of defendants alone might
permit a departure from the clear cap in Section
2025.295.
/s/ Michael M. Markman
Judge
Dated: 06/15/2021

App.40a
STATUTORY PROVISIONS INVOLVED
Cal. C.C.P. § 2025.290 (West’s Ann.)
§ 2025.290. Time limits of depositions
(a) Except as provided in subdivision (b), or by
any court order, including a case management order,
a deposition examination of the witness by all
counsel, other than the witness’ counsel of record,
shall be limited to seven hours of total testimony. The
court shall allow additional time, beyond any limits
imposed by this section, if needed to fairly examine
the deponent or if the deponent, another person, or
any other circumstance impedes or delays the examination.
(b) This section shall not apply under any of the
following circumstances:
(1) If the parties have stipulated that this section
will not apply to a specific deposition or to
the entire proceeding.
(2) To any deposition of a witness designated
as an expert pursuant to Sections 2034.210
to 2034.310, inclusive.
(3) To any case designated as complex by the
court pursuant to Rule 3.400 of the California
Rules of Court, unless a licensed physician
attests in a declaration served on the parties
that the deponent suffers from an illness or
condition that raises substantial medical
doubt of survival of the deponent beyond six
months, in which case the deposition examination of the witness by all counsel, other
than the witness’ counsel of record, shall be

App.41a
limited to two days of no more than seven
hours of total testimony each day, or 14
hours of total testimony.
(4) To any case brought by an employee or
applicant for employment against an employer
for acts or omissions arising out of or
relating to the employment relationship.
(5) To any deposition of a person who is
designated as the most qualified person to
be deposed under Section 2025.230.
(6) To any party who appeared in the action
after the deposition has concluded, in which
case the new party may notice another
deposition subject to the requirements of this
section.
(c) It is the intent of the Legislature that any
exclusions made by this section shall not be construed
to create any presumption or any substantive change
to existing law relating to the appropriate time limit
for depositions falling within the exclusion. Nothing
in this section shall be construed to affect the existing
right of any party to move for a protective order or
the court’s discretion to make any order that justice
requires to limit a deposition in order to protect any
party, deponent, or other natural person or organization from unwarranted annoyance, embarrassment,
oppression, undue burden, or expense.

App.42a
Cal. C.C.P. § 2025.295 (West’s Ann.)
§ 2025.295. Health of deponent;
additional time allowed
(a) Notwithstanding Section 2025.290, in any civil
action for injury or illness that results in mesothelioma
or silicosis, a deposition examination of the plaintiff
by all counsel, other than the plaintiff’s counsel of
record, shall be limited to seven hours of total testimony if a licensed physician attests in a declaration
served on the parties that the deponent suffers from
mesothelioma or silicosis, raising substantial medical
doubt of the survival of the deponent beyond six
months.
(b) Notwithstanding the presumptive time limit
in subdivision (a), upon request by a defendant, a
court may, in its discretion, grant one of the
following up to:
(1) An additional three hours of deposition testimony for no more than 10 hours of total
deposition conducted by the defendants if
there are more than 10 defendants appearing
at the deposition.
(2) An additional seven hours of deposition testimony for no more than 14 hours of total
deposition conducted by the defendants if
there are more than 20 defendants appearing
at the deposition.
(c) The court may grant the additional time provided for in paragraphs (1) and (2) of subdivision (b)
only if it finds that an extension, in the instant case, is
in the interest of fairness, which includes consideration
of the number of defendants appearing at the deposition, and determines that the health of the deponent

App.43a
does not appear to be endangered by the grant of additional time.
Cal. C.C.P. § 2025.420 (West’s Ann.)
§ 2025.420. Protective orders; authority and
action by court; burden of demonstrating
inaccessibility of information; court order and
conditions for discovery; monetary sanctions;
electronically stored information sanctions
(a) Before, during, or after a deposition, any
party, any deponent, or any other affected natural
person or organization may promptly move for a protective order. The motion shall be accompanied by a
meet and confer declaration under Section 2016.040.
(b) The court, for good cause shown, may make
any order that justice requires to protect any party,
deponent, or other natural person or organization from
unwarranted annoyance, embarrassment, or oppression, or undue burden and expense. This protective
order may include, but is not limited to, one or more
of the following directions:
(1) That the deposition not be taken at all.
(2) That the deposition be taken at a different
time.
(3) That a video recording of the deposition testimony of a treating or consulting physician or
of any expert witness, intended for possible
use at trial under subdivision (d) of Section
2025.620, be postponed until the moving party
has had an adequate opportunity to prepare,
by discovery deposition of the deponent, or
other means, for cross-examination.

App.44a
(4) That the deposition be taken at a place other
than that specified in the deposition notice, if
it is within a distance permitted by Sections
2025.250 and 2025.260.
(5) That the deposition be taken only on certain
specified terms and conditions.
(6) That the deponent’s testimony be taken by
written, instead of oral, examination.
(7) That the method of discovery be interrogatories to a party instead of an oral deposition.
(8) That the testimony be recorded in a manner
different from that specified in the deposition
notice.
(9) That certain matters not be inquired into.
(10) That the scope of the examination be limited
to certain matters.
(11) That all or certain of the writings or tangible
things designated in the deposition notice
not be produced, inspected, copied, tested,
or sampled, or that conditions be set for the
production of electronically stored information
designated in the deposition notice.
(12) That designated persons, other than the
parties to the action and their officers and
counsel, be excluded from attending the
deposition.
(13) That a trade secret or other confidential
research, development, or commercial information not be disclosed or be disclosed only
to specified persons or only in a specified way.

App.45a
(14) That the parties simultaneously file specified
documents enclosed in sealed envelopes to
be opened as directed by the court.
(15) That the deposition be sealed and thereafter
opened only on order of the court.
(16) That examination of the deponent be terminated. If an order terminates the examination, the deposition shall not thereafter be
resumed, except on order of the court.
(c) The party, deponent, or any other affected
natural person or organization that seeks a protective
order regarding the production, inspection, copying,
testing, or sampling of electronically stored information on the basis that the information is from a source
that is not reasonably accessible because of undue
burden or expense shall bear the burden of demonstrating that the information is from a source that is
not reasonably accessible because of undue burden or
expense.
(d) If the party or affected person from whom
discovery of electronically stored information is sought
establishes that the information is from a source that
is not reasonably accessible because of undue burden
or expense, the court may nonetheless order discovery
if the demanding party shows good cause, subject to
any limitations imposed under subdivision (f).
(e) If the court finds good cause for the production
of electronically stored information from a source that
is not reasonably accessible, the court may set conditions for the discovery of the electronically stored
information, including allocation of the expense of
discovery.

App.46a
(f) The court shall limit the frequency or extent
of discovery of electronically stored information, even
from a source that is reasonably accessible, if the
court determines that any of the following conditions
exist:
(1) It is possible to obtain the information from
some other source that is more convenient,
less burdensome, or less expensive.
(2) The discovery sought is unreasonably cumulative or duplicative.
(3) The party seeking discovery has had ample
opportunity by discovery in the action to
obtain the information sought.
(4) The likely burden or expense of the proposed
discovery outweighs the likely benefit, taking
into account the amount in controversy, the
resources of the parties, the importance of
the issues in the litigation, and the importance
of the requested discovery in resolving the
issues.
(g) If the motion for a protective order is denied
in whole or in part, the court may order that the
deponent provide or permit the discovery against which
protection was sought on those terms and conditions
that are just.
(h) The court shall impose a monetary sanction
under Chapter 7 (commencing with Section 2023.010)
against any party, person, or attorney who unsuccessfully makes or opposes a motion for a protective
order, unless it finds that the one subject to the
sanction acted with substantial justification or that

App.47a
other circumstances make the imposition of the sanction unjust.
(i)
(1) Notwithstanding subdivision (h), absent
exceptional circumstances, the court shall
not impose sanctions on any party, deponent,
or other affected natural person or organization or any of their attorneys for failure to
provide electronically stored information that
has been lost, damaged, altered, or overwritten as the result of the routine, good faith
operation of an electronic information system.
(2) This subdivision shall not be construed to
alter any obligation to preserve discoverable
information.
Cal. C.C.P. § 2025.620 (West’s Ann.)
§ 2025.620. Use of deposition at trial or other
hearings; procedural requirements; permitted
uses; submission of total or partial testimony
At the trial or any other hearing in the action,
any part or all of a deposition may be used against
any party who was present or represented at the taking
of the deposition, or who had due notice of the deposition and did not serve a valid objection under Section
2025.410, so far as admissible under the rules of evidence applied as though the deponent were then
present and testifying as a witness, in accordance
with the following provisions:
(a) Any party may use a deposition for the purpose of contradicting or impeaching the testimony of the deponent as a witness, or for

App.48a
any other purpose permitted by the Evidence Code.
(b) An adverse party may use for any purpose,
a deposition of a party to the action, or of
anyone who at the time of taking the deposition was an officer, director, managing agent,
employee, agent, or designee under Section
2025.230 of a party. It is not ground for
objection to the use of a deposition of a party
under this subdivision by an adverse party
that the deponent is available to testify, has
testified, or will testify at the trial or other
hearing.
(c) Any party may use for any purpose the
deposition of any person or organization,
including that of any party to the action, if
the court finds any of the following:
(1) The deponent resides more than 150
miles from the place of the trial or other
hearing.
(2) The deponent, without the procurement
or wrongdoing of the proponent of the
deposition for the purpose of preventing
testimony in open court, is any of the
following:
(A) Exempted or precluded on the
ground of privilege from testifying
concerning the matter to which the
deponent’s testimony is relevant.
(B) Disqualified from testifying.

App.49a
(C) Dead or unable to attend or testify
because of existing physical or
mental illness or infirmity.
(D) Absent from the trial or other
hearing and the court is unable to
compel the deponent’s attendance
by its process.
(E) Absent from the trial or other
hearing and the proponent of the
deposition has exercised reasonable
diligence but has been unable to
procure the deponent’s attendance
by the court’s process.
(3) Exceptional circumstances exist that
make it desirable to allow the use of
any deposition in the interests of justice
and with due regard to the importance
of presenting the testimony of witnesses
orally in open court.
(d) Any party may use a video recording of the
deposition testimony of a treating or
consulting physician or of any expert witness
even though the deponent is available to
testify if the deposition notice under Section
2025.220 reserved the right to use the deposition at trial, and if that party has complied
with subdivision (m) of Section 2025.340.
(e) Subject to the requirements of this chapter,
a party may offer in evidence all or any part
of a deposition, and if the party introduces
only part of the deposition, any other party
may introduce any other parts that are
relevant to the parts introduced.

App.50a
(f)

Substitution of parties does not affect the
right to use depositions previously taken.

(g) When an action has been brought in any
court of the United States or of any state,
and another action involving the same subject matter is subsequently brought between
the same parties or their representatives or
successors in interest, all depositions lawfully
taken and duly filed in the initial action
may be used in the subsequent action as if
originally taken in that subsequent action.
A deposition previously taken may also be
used as permitted by the Evidence Code.

